           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ORGANIZATIONAL REPRESENTATIVE
           PAYEE IN OHIO

      June 2010   A-05-08-48109




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      June 17, 2010                                                                           Refer To:

To:        James F. Martin
           Regional Commissioner
            Chicago

From:      Inspector General

Subject:   Organizational Representative Payee in Ohio (A-05-08-48109)


           OBJECTIVE
           Our objectives were to determine whether Consciously Aware Services that Empower,
           Inc. (CASE), an organizational representative payee, had effective safeguards over the
           receipt and disbursement of Social Security Administration (SSA) benefits and these
           benefits were used and accounted for in accordance with SSA’s policies and
           procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           payments. 1 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2
           beneficiaries and Supplemental Security Income (SSI) 3 recipients when representative
           payments would serve the individual’s interests. 4



           1
               Social Security Act §§ 205(j)(1) and 1631(a)(2); 42 U.S.C §§ 405(j)(1) and 1383(a)(2).
           2
            The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
           well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
            The SSI program provides payments to individuals who have limited income and resources and who are
           either age 65 or older, blind or disabled. 20 Code of Federal Regulations § 416.110.
           4
            SSA, Program Operations Manual System (POMS), GN 00501.005—Overview of Representative
           Payment.
Page 2 - James F. Martin


CASE is a nonprofit agency founded in February 2004 and based in Cleveland, Ohio. A
periodic financial review 5 conducted in December 2007 by an SSA contractor raised a
number of questions about the condition of the accounting records. As a result, the
Agency decided to move the beneficiaries6 to other representative payees and, as of
February 2008, CASE’s role as a representative payee had ended. On January 3,
2008, CASE submitted to SSA a client list with account ending balances, totaling about
$207,000 for 178 beneficiaries.7 On March 4, 2008, CASE returned $65,000 to SSA,
which was $142,000 less than the approximately $207,000 client account ending
balances.8 According to the Social Security Protection Act of 2004, 9 under certain
conditions, the Agency is required to reimburse SSA beneficiaries for funds misused by
a representative payee. SSA’s Cleveland Field Office (FO) requested the Office of the
Inspector General (OIG) conduct this audit to assist the Agency in determining the
appropriate balances due each beneficiary.

SSA paid approximately $1.1 million to CASE during our 12-month audit period from
July 2006 through June 2007 on behalf of 218 beneficiaries (see table below). The
average age of the beneficiaries with CASE was 43 years old, and 74 percent of these
beneficiaries was diagnosed with a mental impairment or mood disorder.

                            Table 1: Social Security Deposits at CASE
                                        (July 2006 to June 2007)
                                        Number of         Total SSA Payments
            Type of Beneficiary        Beneficiaries     (July 2006 - June 2007)
                  Title II                         56                   $ 386,719
                 Title XVI                        131                   $ 591,337
               Concurrent                          31                   $ 154,068
                  Totals                          218                   $ 1,132,124
          Note: Not all of these beneficiaries were with CASE during the entire 12-month
          audit period.

5
    See Appendix C for a description of the representative payee reviews performed by SSA.
6
    We use the term “beneficiary” to refer to both OASDI beneficiaries and SSI recipients.
7
 We identified seven additional individuals on CASE’s final client list who either (1) had never been SSA
beneficiaries or (2) had insufficient personal identifying information to determine whether they were SSA
beneficiaries.
8
  We neither independently confirmed the accuracy of the ending balances submitted to SSA on
January 3, 2008 nor assessed the financial transactions occurring between January 3 and March 4, 2008
that may have increased or decreased the ending balances. It is possible that some of the funds in the
ending balances were unrelated to SSA benefit payments. In the 12-month period we audited, we found
that approximately 3.6 percent of all deposits was from non-SSA sources.
9
  Under the Social Security Protection Act of 2004, Pub. L. No. 108-203, § 101, SSA is required to
re-issue benefits when an individual representative payee serving 15 or more beneficiaries or an
organizational representative payee is found to have misused Title II, Title VIII, and/or Title XVI benefits.
Misuse of benefits by a representative payee occurs in any case in which the representative payee
receives payment under these titles for the use and benefit of another person and converts such
payment, or any part thereof, to a use other than for the use and benefit of such other person.
Page 3 - James F. Martin


RESULTS OF REVIEW
Our review found that CASE did not have effective safeguards over the receipt and
disbursement of SSA benefits, and SSA cannot be assured that these benefits were
used and accounted for in accordance with its policies and procedures. Of the
$1.1 million SSA paid to CASE, about $132,600, or 12 percent of these funds, was not
accounted for appropriately during our audit period. CASE owes approximately
$30,200 to SSA beneficiaries because of unrecorded deposits, uncashed checks, and
excessive fees. Furthermore, CASE lacked adequate documentation supporting
approximately $102,400 in withdrawals from the collective account related to about
$97,000 in debit/credit card withdrawals and approximately $5,400 transferred to the
operating account. We estimate CASE owes SSA approximately $172,200 related to
funds owed to specific beneficiaries from our audit period ($30,200) and unreturned
funds related to the ending balances when it ceased to operate as a representative
payee ($142,000). In addition, CASE was serving as a representative payee for
individuals without appropriately notifying SSA. In terms of SSA’s oversight of CASE,
SSA did not (1) ensure CASE’s mission was consistent with the duties expected of a
representative payee, (2) perform a timely financial analysis of CASE, (3) ensure CASE
had appropriate bond insurance coverage protecting the Agency’s interests, and
(4) maintain current addresses for 79 beneficiaries transferred from CASE to new
representative payees.

                   Table 2: Amount Owed to SSA by CASE After
                            Serving as a Representative Payee
                                  (March 4, 2008)
                        Funds Owed to SSA                        Amount
         Amount Due to SSA Per CASE’s Records                    $207,000
         Additional Amount Due to SSA Per OIG Audit              $ 30,200
         Total Due SSA                                           $237,200
         Amount Returned by CASE                                 $ -65,000
         Amount Still Due to SSA                                 $172,200

CASE MANAGEMENT OF BENEFICIARY FUNDS

Our review of the accounting and bank records at CASE identified a number of issues,
including (1) funds owed to specific SSA beneficiaries, (2) collective account
withdrawals that could not be traced to services provided to beneficiaries, and (3) CASE
acting as a representative payee for beneficiaries without appropriately notifying SSA.

Management of Funds

Of the $1.1 million SSA paid to CASE during our audit period, approximately
$132,600, or 12 percent of these funds, was not accounted for appropriately (see
Figure 1). We found issues in the following areas.

   Funds Owed to Specific SSA Beneficiaries: We determined that CASE owed SSA
    beneficiaries approximately $30,200 for the period July 2006 through June 2007.
Page 4 - James F. Martin


     This amount included about $15,700 in unrecorded SSA deposits,10 $11,600 in
     uncashed checks,11 and $2,900 in excessive representative payee fees. 12 For
     example, one beneficiary, who was with CASE during our audit period, was a
     50-year-old male concurrently entitled to SSA benefits. His disability diagnosis was
     listed as schizophrenic, paranoid, and other functional psychoactive disorders. We
     determined CASE owed this individual $653 because of (1) two unrecorded deposits
     (one for Title II and one for Title XVI) totaling $623 and (2) $30 in excessive service
     fees.

    Collective Account Withdrawals: As part of our review, we analyzed the bank
     transfers to the operating account and the debit/credit card transactions on the
     beneficiary accounts and compared them to the withdrawals on the bank
     statements. We were unable to identify and trace approximately $102,400 in
     withdrawals from the collective account back to the beneficiaries’ accounting
     records. Specifically, we identified approximately $97,000 in debit/credit card
     withdrawals on the bank statements that was not recorded as expenditures in the
     beneficiaries’ accounting records. Most of these withdrawals were made via
     debit/credit card at automated teller machines and could not be tied back to the
     needs of a particular beneficiary. We also found about $5,400 in unsupported
     transfers from the collective account to CASE’s operating account.

                             Figure 1: Funds Not Accounted for
                                   Appropriately by CASE
                                  (July 2006 to June 2007)

                                $5,400
                                 ( 4%)


                                                                       $97,000
                                                                        ( 73%)

                           $30,200
                            ( 23%)



                               Funds Owed to Specific Beneficiaries
                               Unsupported Transfers to Operating Account
                               Unsupported Credit/Debit Card Purchases


10
  An unrecorded deposit occurred when SSA funds were received by CASE but not posted to a
beneficiary’s account.
11
  An uncashed check occurred when an expense was posted to an individual’s account, but the
associated check never cleared the bank.
12
  An excessive fee occurred when CASE withdrew more than the allowable monthly representative
payee service fee.
Page 5 - James F. Martin


When the $30,200 in funds owed to specific beneficiaries from our audit period is
combined with the approximately $142,000 in unreturned funds when CASE ceased its
services as a representative payee, CASE could not account for approximately
$172,200 in beneficiary funds. We could not determine the extent to which the
$102,400 in withdrawals from the collective account was part of the $142,000 in
unreturned funds. However, it appears the $30,200 in accounting errors was not part of
the beneficiary account ending balances since we saw no evidence of CASE identifying
or reporting these problems in the financial records. Had the beneficiary accounting
records been properly adjusted based on our audit findings, the beneficiary account
ending balances on January 3, 2008 would have been approximately $237,200. 13
Moreover, the inadequate controls related to the reported irregularities occurred
throughout the 12-month period, so it is possible the loss could be even greater for
beneficiaries with CASE for more than the 12 months of our review.

INTERNAL CONTROLS

SSA’s Guide for Organizational Representative Payees (Guide)14 indicates that
collective accounts are to have clear and current records showing the amount of each
beneficiary’s share and follow proper procedures for documenting credit and debits and
allocating interest. 15 Furthermore, the Guide indicates representative payees are
responsible for ensuring benefits are used for the use and benefit of the beneficiary and
in the beneficiary’s best interests. 16 In our review of CASE’s accounting and banking
records, we determined CASE did not

     accurately post the amounts of income received on behalf of its clients;
     maintain sufficient documentation supporting the withdrawals made and the
      expenses paid on behalf of its clients;
     maintain logs detailing the amount of cash disbursed and how cash was spent that
      was directly issued to the beneficiaries;



13
  This $237,200 ending balance, less the $65,000 returned by CASE on March 4, 2008, results in
$172,200 in unreturned funds.
14
   SSA, Guide for Organizational Representative Payees, online guide located at
http://www.ssa.gov/payee/NewGuide/toc.htm (December 21, 2009). See Appendix C for more details
concerning representative payee responsibilities.
15
     SSA, POMS, General (GN) 00501.005, Section E.3—Overview of Representative Payee.
16
  Id. In addition, page 16 of the Guide for Organizational Representative Payees provides that the
representative payee “…must use the benefits for the beneficiary’s current maintenance needs for food,
housing, clothing, and medical and dental care not covered by Medicare, Medicaid or provided by a
residential institution. After these needs are met, [the representative payee] may also use the benefits for
personal comfort items, recreation and miscellaneous expenses. If not needed for these purposes, [the
representative payee] must conserve the remaining benefits on behalf of the beneficiary.”
Page 6 - James F. Martin


     perform monthly bank reconciliations or exercise other oversight methods to properly
      monitor beneficiary account balances;17 and
     open savings accounts for beneficiaries with funds exceeding what was required to
      meet their monthly needs.

Because of the condition of the accounting records, it was difficult to determine whether
the withdrawn funds were used to meet the beneficiaries’ needs and spent on such
items as housing, food, clothing, and medical care. As a result, we believe SSA cannot
be assured that the expenditures made by CASE were used to meet the needs of the
beneficiaries whom CASE served as a representative payee. 18

We interviewed 10 beneficiaries who had CASE as a representative payee during our
audit period and found that CASE had provided them with debit cards and checks for
their personal needs without closely monitoring how the funds were being used. The
beneficiaries indicated that CASE neither required receipts to support their cash
purchases nor voluntarily provided beneficiaries with information concerning their
account balances. Usually, the account information was provided after multiple
inquiries, and the information was not provided in writing. The majority of the
beneficiaries we visited also stated their bills were not always paid in a timely manner,
with one beneficiary stating that her credit card account was still unpaid approximately
2 years after the end of our audit period.

Unauthorized Representation of Beneficiaries

Our review identified five cases where CASE received funds for SSA beneficiaries
without authorization from SSA. Specifically, CASE managed the funds for three SSA
beneficiaries whom SSA had not assigned to CASE as a representative payee. In the
other two cases, the beneficiaries allowed CASE to manage their funds before CASE
became their official representative payee. SSA requires an application seeking
permission to become a representative payee before handling any SSA funds.19




17
  Until April 2007, CASE maintained both a single collective bank account and individual bank accounts
for the majority of the beneficiaries for deposits and disbursed funds. In April 2007, CASE opened a new
collective bank account and consolidated the existing funds from the earlier collective and individual bank
accounts into this new collective bank account. The various accounts made it difficult to confirm the
accuracy of the beneficiary account balances. Moreover, until April 2007, CASE needed to perform
135 bank reconciliations to ensure the balances were correct.
18
     See Appendix D for a flowchart of CASE’s bank deposit and disbursement process.
19
     SSA, POMS, GN 00502.107.A.1—The Representative Payee Application.
Page 7 - James F. Martin


SSA REPRESENTATIVE PAYEE’S APPLICATION AND SELECTION PROCESSES

In terms of SSA’s oversight of CASE, SSA did not (1) ensure CASE’s mission was
consistent with the duties expected of a representative payee, (2) perform a timely
financial analysis of CASE, (3) ensure CASE had appropriate bond insurance coverage
protecting the Agency’s interests, and (4) maintain current addresses for
79 beneficiaries transferred from CASE to new representative payees.

CASE Business Practices

By allowing beneficiaries control over their own funds, CASE’s business practices were
inconsistent with SSA’s requirements for representative payees. According to SSA
guidance, 20 SSA appoints a representative payee when it determines a beneficiary
cannot manage or direct someone else to manage their SSA benefits. Moreover, SSA
policy indicates that FOs are to be alert for conduit payee situations that may indicate a
lack of payee interest. 21 A conduit payee situation occurs when a representative
payee, “…turns over the full amount of benefits to the beneficiary or another person
without giving any direction or instruction about how to use the funds.” 22 When CASE
applied to be a representative payee, SSA staff was required to make a determination
of the representative payee organization’s relationship to, and interest in, the beneficiary
and the organization’s ability to carry out the responsibilities of a payee. 23

SSA should have been aware that CASE’s business plan stated that the organization
would assist its consumers by teaching them to become conscientious of their spending
habits and providing them with a banking tool (that is, a debit card). As noted earlier,
CASE made $97,000 in debit/credit card withdrawals from the collective account that
was not recorded as expenditures in the beneficiaries’ accounting records. It is possible
the monetary anomalies at CASE could have been avoided had SSA been more familiar
with the organization’s business practices.

Financial Analysis

SSA did not perform a timely financial analysis of CASE. SSA is mandated by law 24 to
obtain information about an organization before authorizing it to serve as a fee for




20
     SSA, Guide for Organizational Representative Payees, page 5.
21
     SSA, POMS, GN 00602.001B.1—FO Responsibility.
22
     Id.
23
     SSA, Guide for Organizational Representative Payees, page 9.
24
     Pub. L. No.101-508 §§ 5105(a)(1) and (2).
Page 8 - James F. Martin


service (FFS) organizational representative payee. SSA obtains credit information
about FFS organizational payees to strengthen the investigation process for FFS
payees. 25 While CASE had been collecting fees from SSA beneficiaries 26 since
January 2005, the Cleveland FO did not request a credit analysis until November 2007,
1 month before a scheduled review of CASE began. We requested a copy of the
November 2007 financial analysis report from the FO and found the report did not
identify any financial irregularities at CASE. 27

Bond Requirement

CASE did not maintain appropriate bond insurance coverage protecting the Agency’s
interests, as required. 28 According to Agency policy, the amount of the bond must be
sufficient to compensate the organization or SSA for any loss of SSA client benefits and
conserved funds.29 CASE held a bond for the period January 18, 2007 through
January 18, 2008 covering losses totaling $50,000 of insurance per occurrence.
However, during our audit period, the conserved funds plus the average monthly
amount of Social Security payments of the SSA beneficiaries added to approximately
$100,000. Moreover, the bond had expired by the time SSA notified CASE that
beneficiaries would be transferred to new representative payees. Finally, a review of
the bond document determined that SSA was never named on the bond, so the Agency
most likely had no coverage under the bond regardless of the document’s expiration.

We later learned that CASE was not included in an Agency mailing to FFS
representative payees in August 2007 advising them to have SSA's name added to their
bond. The Cleveland FO manager indicated that CASE was not advised of this
requirement because they were not listed as a FFS within SSA records, even though




25
   SSA, POMS, GN 00506.600.A—Credit Reporting for New Fee-for-Service Applicants and GN
00605.420.B—Procedures-Completion of Pre-Visit Background Information for SSA Use, Question 16 –
Is the payee fee for services (FFS)?
26
 The former Cleveland FO manager stated that he approved CASE to charge a fee for its services.
However, we were unable to find evidence of the approval in SSA’s records.
27
     The report was indeterminate in some areas.
28
   SSA policy indicates that a non-governmental FFS organization must be bonded in order to be
authorized by SSA to collect a fee. SSA, POMS, GN 00506.105.A—Bonding and Licensing Guidelines
for Non-Governmental Fee For Service (FFS) Organizations.
29
     SSA, POMS, GN 00506.105.C.5.
Page 9 - James F. Martin


CASE had been a FFS since January 2005. 30 As a result, SSA’s beneficiaries lacked
the required protection under the bond and any losses may now be the responsibility of
SSA. 31

Inaccurate Beneficiary Addresses

SSA did not maintain updated mailing addresses for beneficiaries relocated to other
organizations after they left CASE. SSA’s guidance requires that representative payees
report when the beneficiary moves. 32 SSA’s records contained incorrect beneficiary
addresses for 79 beneficiaries who were relocated to 3 other organizational
representative payees. We learned of the issue after we used the current mailing
addresses from SSA’s records to notify 134 of the 218 beneficiaries with individual bank
accounts of our need to subpoena their bank statements.33 The subpoena letters were
returned as undeliverable in 79 of the 134 cases (59 percent). We advised the
Cleveland FO manager of this issue, and, as a result, the current representative payees
are being contacted and beneficiary addresses are being updated. To protect
beneficiaries, SSA needs to ensure that payees understand their responsibility to notify
SSA when they learn of a beneficiary’s change of address.

CONCLUSION AND RECOMMENDATIONS
Our review disclosed that CASE did not properly account for the benefits received and
disbursed on behalf of SSA beneficiaries. In addition, we identified program oversight
weaknesses at SSA. Even though CASE is no longer operating as an SSA
representative payee, the Agency still needs to take actions regarding the beneficiaries
formerly served by CASE. Moreover, given the oversight issues noted in our report, the
Chicago Regional Office may want to reinforce its representative payee policies in the
field with additional guidance and training as it relates to our findings.

To resolve the matters associated with CASE and improve the oversight of
representative payees, we recommend that the Chicago Regional Commissioner:

1. Appropriately adjust the account balances of the beneficiaries transferred from
   CASE based on the beneficiary account ending balances provided by CASE as well
   as the audited differences identified during our audit period.


30
  CASE was not initially listed as an FFS in SSA records as a result of a clerical error at SSA. SSA
records now reflect CASE was an FFS representative payee.
31
  As noted earlier, under the Social Security Protection Act of 2004, SSA is required to pay to the
beneficiary or the new representative payee an amount equal to the amount misused. See the Social
Security Protection Act of 2004, Pub. L. No. 108-203, § 107.
32
     SSA, Guide for Organizational Representative Payees, page 13.
33
  CASE was unable to provide any of the individual bank statements for the 134 beneficiaries who had
individual bank accounts during our audit period.
Page 10 - James F. Martin


2. Ensure regional employees are aware of the policies and procedures regarding
   representative payee oversight, including identification of conduit payees, timely
   financial analysis review, proper annotation of a representative payee’s FFS status
   in SSA systems, and appropriate bond wording and coverage.

3. Ensure that the contact information of beneficiaries transferred from CASE is
   updated in SSA records.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix E for the full text of SSA’s
comments.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Oversight of Representative Payees and Representative Payee
             Responsibilities
APPENDIX D – Consciously Aware Services That Empower, Inc., Bank Deposit and
             Disbursement Flowchart
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
CASE          Consciously Aware Services That Empower, Inc.
FFS           Fee For Service
FO            Field Office
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RPS           Representative Payee System
SSA           Social Security Administration
SSI           Supplemental Security Income
                                                                     Appendix B

Scope and Methodology
Our audit covered the period July 1, 2006 through June 30, 2007. To accomplish our
objectives, we:
•   Reviewed applicable Federal regulations, the Social Security Act, and Social
    Security Administration (SSA) policies and procedures pertaining to representative
    payees.
•   Contacted SSA Chicago Regional Office staff to obtain background information
    about Consciously Aware Services that Empower, Inc. (CASE).
•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were served by CASE at some time during the audit period.
•   Interviewed CASE management and obtained beneficiary information and available
    financial records, including a list of individuals who had CASE as a representative
    payee and had received SSA funds at some point during the audit period.
•   Compared the RPS list, Master Beneficiary Record, Supplemental Security Record,
    and Treasury Check Information System and reconciled them to CASE’s list to
    identify the population of SSA beneficiaries who were served by CASE at some point
    during the audit period.
•   Performed a 100-percent review of a population of 218 beneficiaries who were
    served by CASE during the audit period. We performed the following tests for the
    218 beneficiaries.
    - Compared and reconciled benefit amounts received according to CASE’s records
      to benefit amounts paid according to SSA’s records.
    - Reviewed CASE’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.
    - Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.
    - Interviewed 10 beneficiaries to determine whether their basic needs were being
      met.
    - Subpoenaed 135 bank statements from the financial institution to determine
      whether benefits were received and appropriately managed on the beneficiaries’
      behalf.




                                           B-1
CASE’s accounting data were not reliable. The results of our data testing are found in
the body of this report. We performed our fieldwork in Chicago, Illinois, and Cleveland,
Ohio, between February 2008 and November 2009. We audited CASE, a private firm,
and the Cleveland, Ohio, Field Office, which is under SSA’s Chicago Regional Office.
We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          B-2
                                                                                Appendix C

Oversight of Representative Payees and
Representative Payee Responsibilities
The Social Security Administration (SSA) has established criteria for representative
payees handling SSA funds as well as periodic monitoring of the performance of
representative payees. We have provided some of these criteria below.

Representative Payee Responsibilities

The Guide for Organizational Representative Payees1 recommends that representative
payee organizations develop internal procedures and guidelines governing how their
organization manages beneficiary funds and ensure their employees follow them. The
Guide also indicates that these internal procedures should include internal controls to
help ensure the integrity and accuracy of the accounting system.

Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 2

•     Determine the beneficiary’s current needs for day-to-day living and use the benefit
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain accounting records of how the benefits are received and used.

•     Report events to SSA that may affect the individual’s entitlement or benefit payment
      amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Report to account for benefits spent
      and invested.

•     Return any payments to SSA for which the beneficiary is not entitled.


1
 SSA, Guide for Organizational Representative Payees, online guide located at
http://www.ssa.gov/payee/NewGuide/toc.htm (December 21, 2009), page 31.
2
    20 Code of Federal Regulation § 404, subpart U, and § 416, subpart F.

                                                    C-1
•   Return conserved funds to SSA when no longer the beneficiary’s representative
    payee.

•   Ensure Supplemental Security Income recipients do not exceed their resource limits,
    be aware of any other income they may have and monitor their conserved funds.

SSA Oversight of Representative Payees

To oversee its representative payees, SSA implemented the Expanded Monitoring
Program for fee for service (FFS) and volume payees and the Onsite Review Program
for State institutions. Under the Expanded Monitoring Program, SSA conducts a
site review of all FFS and volume payees at least once every 3 years.

FFS and volume payees are also subject to random reviews, quick response checks,
and educational visits. The purpose of the Expanded Monitoring Program is to (1) allow
SSA to determine whether representative payees are performing satisfactorily, (2) deter
potential misuse, (3) keep the lines of communication open between representative
payees and local SSA offices, (4) reinforce SSA’s efforts to educate representative
payees about their duties and responsibilities, and (5) be responsive and proactive in
determining what representative payees need from SSA.




                                          C-2
                                                                                    Appendix D

Consciously Aware Services That Empower, Inc., Bank Deposit
and Disbursement Flowchart



               Bank Deposits1                               Bank Disbursements4


      Individual          Collective Bank                                            Visa Debit
     Beneficiary             Account3                        Checks to                  Card
        Bank                                                  Vendors               Withdrawals
     Accounts2




                                                  Fee Transfers                                   Electronic
                                                   to C.A.S.E.            Checks to                Vendor
                                                    Operating            Beneficiaries            Payments5
                                                     Account




                                            D-1
Notes:


1. CASE was the representative payee for 218 SSA beneficiaries and received $1.1 million on their
   behalf from July 2006 through June 2007.

2. SSA deposits were made to the individual beneficiary bank accounts as well as to the collective bank
   account. CASE also transferred funds to and from the individual beneficiary bank accounts and
   collective bank account.

   Until April 2007, CASE maintained both a single collective bank account as well as individual bank
   accounts for the majority of the beneficiaries for deposits and disbursed funds. In April 2007, CASE
   opened a new collective bank account and consolidated the existing funds from the earlier collective
   and individual bank accounts into this new collective bank account. The various accounts made it
   difficult to confirm the accuracy of the beneficiary account balances. As a result, until April 2007,
   CASE was operating at least 135 separate bank accounts for the beneficiaries.

3. The collective bank account was primarily used to make beneficiary deposits and disbursements.
   Deposits made to the collective bank account were sometimes transferred to the individual bank
   accounts. However, funds were transferred back to the collective bank account for expenditure
   disbursements.

4. Funds were disbursed from both the individual beneficiary bank accounts and collective bank
   accounts. Disbursements included checks to vendors, checks to beneficiaries, Visa debit/credit card
   withdrawals, electronic vendor payments, and transfers to the operating account related to
   representative payee fees.

5. Vendor payments were made on-line directly to the vendor from both the individual bank accounts
   and the collective bank accounts.




                                                  D-2
                  Appendix E

Agency Comments
TO:            Office of Inspector General (OIG)

FROM:          Deputy Commissioner for Operations (DCO)

SUBJECT:       DCO REPLY: Request for Draft Report Comments - Audit # 22008033,
               Organizational Representative Payee in Ohio (Trudy Williams Email, 4/27/10)

Thank you for the opportunity to comment on the draft report presenting the results of your audit
of Consciously Aware Services that Empower, Inc. (CASE), a representative payee in Ohio.
Having reviewed the report, we submit the following comments for your consideration:

                             Recommendations and Conclusions

You recommend that the Chicago Regional Commissioner:

   1. Appropriately adjust the account balances of the beneficiaries transferred from CASE
      based on the beneficiary account ending balances provided by CASE as well as the
      audited differences identified during our audit period.

Response:
Our policy requires that we make restitution to the beneficiaries for funds misused by
organizational representative payees. As stated in the report, the field office manager asked OIG
Criminal Division to help determine the amounts of misused funds for each beneficiary. OIG
Criminal Division declined to open a criminal case, but requested OIG Audit Division to help.
We greatly appreciate the assistance given to us by your Audit Division. The audit deals only
with the period June 2006 through July 2007. However, the period of probable misuse extended
to January 2008, when the payee admitted she had been using money from the collective account
for operating expenses. A determination of the total misuse amount still needs to be made. We
have been advised by OIG Audit staff that they will assist in determining the total amount of
misused funds, and we appreciate this additional effort on their part.

   2. Ensure regional employees are aware of the policies and procedures regarding
      representative payee oversight, including identification of conduit payees, timely
      financial analysis review, proper annotation of a representative payee’s FFS status in
      SSA systems, and appropriate bond wording and coverage.

Response:
To effectively exercise the Agency’s oversight responsibilities, we are keenly aware of the need
for field office staff to be knowledgeable about complex policies and procedures. We conduct
regular and intensive Regional training for key field office staff on all aspects of the Expanded
Monitoring Program. This training is then supplemented by fan–down training in field offices. In
addition, we recently issued a comprehensive Regional POMS Supplement that provides specific
guidance on handling problems encountered during site reviews of organizational representative
payees, including misuse. We will continue to offer ongoing guidance and refresher training for
managers and field office staff.



                                               E-1
   3. Ensure that the contact information of beneficiaries transferred from CASE is updated in
      SSA records.

Response:
While we agree with this recommendation in principle, we are not able to comply fully, given the
constraints of our systems. While the SSID can be updated with address changes for Title 16
beneficiaries, the MBR houses address data only for representative payees, not for the Title 2
beneficiaries whose benefits they manage.

                                  Other Issues in the Report

Unauthorized Representation of Beneficiaries

The audit revealed that CASE was acting as de facto representative payee for three beneficiaries
who were in direct pay. While we acknowledge this practice is undesirable, SSA has no control
over individuals who voluntarily permit others to control their benefits, without the Agency’s
knowledge. When an arrangement of this type is brought to the Agency’s attention, we, of course
take the appropriate action to determine if the beneficiary is incapable of managing his or her
own funds.

SSA’s Representative Payee Application and Selection Process

You state in the report that “SSA should have been aware that CASE’s business plan stated that
the organization would assist its consumers by teaching them to become conscientious of their
spending habits and providing them with a banking tool.” There is no requirement in POMS that
the field office review a payee applicant’s business plan. Moreover, the supervised use of a debit
card for personal purchases (after the payee has paid basic costs of food and shelter) was
described to the FO as a means of helping the beneficiaries develop good spending practices.
While this practice apparently was not followed as planned, the triennial review initiated in
December 2007 was the first opportunity field office staff had to examine CASE’s financial
records in detail. As soon as the misuse was revealed, the FO took immediate steps to replace the
payee.

We will discuss with our policy component at SSA headquarters the concerns raised in this audit
report, and the possibility of establishing more rigorous Fee for Service selection criteria.

If members of your staff have questions, they may contact Marva Watkins at 312-575-4207.

                            Roger McDonnell for Mary Glenn-Croft




                                               E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Annette Dunn, Audit Manager, Chicago Office

Acknowledgments

In addition to those named above:

   Lorrie Clement, Senior Auditor

   Nichole Purnell, Auditor-in-Charge

   Linda Smid, Auditor

   Wai Ho Yung, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-08-48109.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
